D
R                                                          OFFICE OF THE CHIEF 

A
F                                                          FINANCIAL OFFICER 

T




             Office of Inspector General—Office of Audit




                                                           DOL NEEDS TO ESTABLISH A CENTRAL POINT
                                                           OF ACCOUNTABILITY OVER THE DEPARTMENT'S
                                                           WORKING CAPITAL FUND OPERATIONS TO
                                                           ENSURE IT MEETS THE LEGISLATIVE INTENT




                                                                                 Date Issued:   September 28, 2010
02-A12-345-67-890                                                             Report Number:      03-10-002-13-001
U.S. Department of Labor
Office of Inspector General                                   September 2010
Office of Audit
                                                              DOL NEEDS TO ESTABLISH A CENTRAL

BRIEFLY…
                                                              POINT OF ACCOUNTABILITY OVER THE
                                                              DEPARTMENT'S WORKING CAPITAL FUND
Highlights of Report Number 03-10-002-13-001, to the          OPERATIONS TO ENSURE IT MEETS THE
Chief Financial Officer                                       LEGISLATIVE INTENT

                                                              WHAT OIG FOUND
WHY READ THE REPORT                                           The Secretary of Labor assigned the CFO the
The Office of Inspector General (OIG) conducted a             responsibility for maintaining and operating the WCF.
performance audit of the Department’s Working Capital         However, we found WCF responsibilities were shared
Fund (WCF). The WCF is an intergovernmental                   between the CFO and the Assistant Secretary for
revolving fund that operates as a self-supporting entity      Administration and Management (ASAM). CFO
conducting business-like activities. It functions entirely    responsibilities included developing policies affecting
from the fees charged to 13 customer agencies for the         WCF management and ASAM responsibilities included
services it provides. In the Department of Labor (DOL),       preparing the annual WCF budget. Additionally, a WCF
the WCF is available without fiscal year limitation for the   Committee, which included administrative officers of
operation of a comprehensive program of centralized           customer agencies, had a review role over WCF
services as deemed appropriate and advantageous by            operations.
the Secretary of Labor. The WCF services and activities
are paid for by means of reimbursement in advance             As a result of the CFO and ASAM sharing WCF
from DOL customer agencies to return the full cost of         responsibilities between them, and the WCF
operations to the service providers. In fiscal year (FY)      Committee’s review role, the WCF operations lacked a
2008, WCF budgetary resources totaled $192.6 million.         central point of accountability and oversight, and the
                                                              need for detailed policies and procedures was not
                                                              recognized. The CFO and ASAM could not ensure that
WHY OIG CONDUCTED THE AUDIT                                   WCF services and activities were appropriate and
                                                              advantageous, budget estimates were reasonable,
The audit objective was to answer the following               allocation methods were appropriate, charges to the
question:                                                     WCF were reviewed, and non-personnel costs were
                                                              monitored to ensure service providers properly charged
        Is the WCF operated according to Federal law,         them to the WCF.
        guidelines, and DOL policies?
                                                              Taken together, the conditions resulted in a lack of
The audit covered WCF operations and policies and             transparency to customer agencies regarding how the
procedures in place at the time of fieldwork, which           WCF operated. Customer agencies are not confident
occurred between June 2009 and February 2010. No              that the WCF is being operated in an effective and
significant policy changes covering the WCF occurred          efficient manner and that WCF services and activities
as of May 2010. Most of the analytical audit work             are appropriate and advantageous. Without reliable
covered FY 2008 data, which was the most recent               WCF budget estimates, customer agencies cannot
completed fiscal year when we started the audit in June       effectively manage funds for their program activities.
2009.                                                         Finally, the Department’s lack of monitoring of service
                                                              provider costs resulted in an overstatement of FY 2008
                                                              WCF costs by $1.3 million.
READ THE FULL REPORT
                                                              WHAT OIG RECOMMENDED
To view the report, including the scope, methodology,
                                                              We made recommendations related to revising DOL
and full agency response, go to:
                                                              policy, clearly defining roles and responsibilities, and
http://www.oig.dol.gov/public/reports/oa/2010/03-10-          establishing sufficient oversight of WCF operations.
002-13-001.pdf
                                                              The CFO stated that management concurred with the
                                                              findings, except for the finding that the Department did
                                                              not follow the Secretary’s policy guidance in managing
                                                              the WCF.
                                                             U.S. Department of Labor – Office of Inspector General 





Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
	
                                                                                                                


Results in Brief .............................................................................................................. 2
	
                                                                                                                                 


Objective — Is the WCF operated according to Federal law, guidelines, and DOL 

            policies? ................................................................................................... 4
	
                                                                                                                           

         WCF operations lacked a central point of accountability and oversight, and 

         the need for detailed policies and procedures was not recognized. ..................... 4
	


         Finding 1 — The CFO did not have the overall responsibiltiy for WCF 

                      operations as required by the Secretary's Order............................. 4
	

         Finding 2 — The CFO did not demonstrate that 16 percent of the services 

                      and activities financed through the WCF were appropriate 

                      and advantageous to the Department as required by law. .............. 6
	

         Finding 3 — The WCF budget process did not provide reasonable 

                      estimates of funds needed from the customer agencies. .............. 10
	                           

         Finding 4 — The CFO could not always demonstrate that the methodology 

                      used for allocating costs was appropriate and the supporting 

                      data used to charge the costs were accurate................................ 12
	                    

         Finding 5 — The CFO did not have monitoring controls in place to review 

                      non-personnel costs that service providers charged to the 

                      WCF.............................................................................................. 14
	
                                                                                                                          


Recommendations ...................................................................................................... 17
	
                                                                                                                         


Exhibit
         Exhibit Allocation Methods With Insufficient Information ................................... 21
	
                                                                                                        


Appendices
         Appendix A Background ..................................................................................... 27
	
                                                                                                                       

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 31
	                

         Appendix C Acronyms and Abbreviations .......................................................... 35
	         

         Appendix D OCFO Response to Draft Report .................................................... 37
	            

         Appendix E Acknowledgements ......................................................................... 39
	    





                                                                                              DOL Working Capital Fund
                                                                                            Report No. 03-10-002-13-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                        DOL Working Capital Fund
                                      Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 28, 2010

                        Assistant Inspector General’s Report



James L. Taylor
Chief Financial Officer
US Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The U.S. Department of Labor (DOL), Office of Inspector General (OIG) conducted a
performance audit of the Department’s Working Capital Fund (WCF). The WCF is an
intergovernmental revolving fund that operates as a self-supporting entity conducting
business-like activities. It functions entirely from the fees charged to 13 customer
agencies for the services it provides. In DOL, the WCF was established by Public Law
(PL) 85-67 in June 1957, and is available without fiscal year limitation for the operation
of a comprehensive program of centralized services as deemed appropriate and
advantageous by the Secretary of Labor. Organizations typically provide common
administrative activities, such as procurement, accounting, and information technology,
to operating units on a centralized basis, either at the same location or by the same
group, for economy and efficiency purposes. DOL’s WCF services and activities include
budget, accounting, payroll, procurement, human resources, information technology,
and telecommunication. The WCF services and activities are paid for by means of
reimbursement in advance from DOL customer agencies to return the full cost of
operations to the service providers. In fiscal year (FY) 2008, WCF budgetary resources
totaled $192.6 million.

The audit objective was to answer the following question:

   Is the WCF operated according to Federal law, guidelines, and DOL policies?

The audit covered WCF operations and policies and procedures in place at the time of
fieldwork, which occurred between June 2009 and February 2010. No significant policy
changes covering the WCF occurred as of May 2010. Most of the analytical audit work
covered FY 2008 data, which was the most recent completed fiscal year when we
started the audit in June 2009. To determine if the WCF operated according to Federal
guidelines and DOL policies, we obtained an understanding of the WCF organizational
structure and operations, analyzed cost estimates and actual collections covering FYs
2006 through 2008, and assessed the reasonableness of WCF budget estimates and
the allocation methods used to charge WCF costs to customer agencies. To determine
the adequacy of controls for charging non-personnel costs to the WCF and customer

                                                                         DOL Working Capital Fund
                                             1                         Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 




agencies, we analyzed a judgmental sample of 30 non-personnel transactions, totaling
$36.8 million from a universe of 2,231 non-personnel transactions totaling $78.5 million.
To determine if all of the WCF services and activities were appropriate and
advantageous, we reviewed the current WCF Pricing Strategies Pamphlet to gain an
understanding of WCF services and activities provided and compared them to the WCF
provisions, which authorize legislation.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective. Our objective, scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

The Secretary of Labor assigned the Chief Financial Officer (CFO) the responsibility for
maintaining and operating the WCF. However, we found the WCF responsibilities were
shared between the CFO and the Assistant Secretary for Administration and
Management (ASAM). CFO responsibilities included developing policies affecting WCF
management, determining customer agency contributions, and maintaining a pricing
strategy to ensure customer agencies were properly charged for costs incurred by WCF
service providers. ASAM responsibilities included preparing the annual WCF budget
submission, apportionments and budget levels, as well as the WCF employment and
staffing patterns. Additionally, a WCF Committee comprising the Office of the CFO
(OCFO), the Office of the Assistant Secretary for Administration and Management
(OASAM), and administrative officers of customer agencies, had a review role over
WCF operations.

As a result of the CFO and ASAM sharing WCF responsibilities between them, and the
WCF Committee’s review role, the WCF operations lacked a central point of
accountability and oversight, and the need for detailed policies and procedures was not
recognized. The CFO and ASAM could not ensure that WCF services and activities
were appropriate and advantageous, budget estimates were reasonable, allocation
methods were appropriate, and charges to the WCF were reviewed.

Specifically, we found that DOL policy was not sufficient regarding how to determine the
appropriateness and advantages of the WCF services activities, develop WCF budget
estimates and allocate associated costs, or determine what monitoring controls were
needed over non-personnel costs to ensure service providers properly charged them to
the WCF.

   •		 The CFO did not demonstrate that 16 percent of the services and activities
       funded through the WCF were appropriate and advantageous. For FY 2008, the
       costs charged to these services and activities were $12.5 million. Our analysis of
       all 127 WCF services and activities identified 20 that did not appear to represent

                                                                     DOL Working Capital Fund
                                            2                      Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




      common administrative services and activities that were appropriate to be
      provided to customer agencies on a centralized basis. Additionally, DOL officials
      provided no evidence to show how they determined these services and activities
      to be appropriate and advantageous.

   •		 The WCF budget process did not provide reasonable estimates of costs or
       anticipated collections from customer agencies, which negatively impacted the
       agencies’ ability to manage their appropriated funds. For FY 2008, 3 of 13
       customer agencies received refunds totaling $1.1 million in the fourth quarter.
       Such end-of-year refunds limited the agencies’ ability to effectively plan how to
       use these funds.

   •		 The Department did not always maintain sufficient information to support that its
       allocation methodology for charging costs to customer agencies was appropriate.
       Likewise, the Department did not provide sufficient information to customer
       agencies on the data supporting their assessment amounts. Without sufficient
       information, the customer agencies were unable to determine if the bases used
       to allocate WCF costs to them were reasonable or if the data used to assess
       WCF costs was accurate.

   •		 The CFO had no monitoring controls in place to ensure that service providers
       properly charged non-personnel costs to the WCF. Our judgmental sample of 30
       non-personnel transactions consisting mostly of contracts and totaling more than
       $36 million found 5 non-personnel transactions totaling $1.3 million, in which
       service providers re-categorized the costs from non-WCF to WCF cost centers,
       charged costs not related to the WCF, or charged costs to the WCF that were
       outside of the contract’s performance period.

Taken together, the conditions resulted in a lack of transparency to customer agencies
regarding how the WCF operated. Customer agencies are not confident that the WCF is
being operated in an effective and efficient manner and that WCF services and activities
are appropriate and advantageous. Without reliable WCF budget estimates, customer
agencies cannot effectively manage funds for their program activities. Finally, the
Department’s lack of monitoring of service provider costs resulted in an overstatement
of FY 2008 WCF costs by $1.3 million.

We made recommendations related to revising DOL policy, clearly defining roles and
responsibilities, and establishing sufficient oversight of WCF operations.

CFO Response

In response to the draft report, the CFO stated that management concurred with the
findings, except for the finding that the Department did not follow the Secretary’s policy
guidance in managing the WCF. However, the CFO stated the Department is committed
to reviewing the WCF management, including mechanisms to improve collaboration
with DOL agencies and the WCF Committee. The CFO responded that the Department

                                                                      DOL Working Capital Fund
                                            3                       Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




was finalizing a contract for an evaluation of DOL’s collection and expenditure of WCF
assessments.

OIG Conclusion

We believe that current DOL policy needs to be revised in order ensure a central point
of accountability and oversight is established for operating and maintaining the WCF
and ensuring it meets the legislative intent.

RESULTS AND FINDINGS

Objective — Is the WCF operated according to Federal law, guidelines, and DOL
            policies?

      WCF operations lacked a central point of accountability and oversight, and the
      need for detailed policies and procedures was not recognized.

The Secretary of Labor assigned the CFO the responsibility for maintaining and
operating the WCF. However, we found that DOL policy shares the WCF responsibilities
between the CFO and the ASAM. We also found that the Department did not have a
process for demonstrating how it determined WCF services and activities were
appropriate and advantageous, the WCF budget process did not provide reasonable
estimates of collections from customer agencies; OASAM and OCFO did not have
sufficient information available to support that the methodology used for allocating costs
was appropriate and the supporting data used to charge the costs were accurate; and
the OCFO did not have monitoring controls in place to review non-personnel costs that
service providers properly charged these costs to the WCF.

Finding 1 — The CFO did not have the overall responsibiltiy for WCF operations
            as required by the Secretary's Order.

The Secretary of Labor assigned the CFO the responsibility for maintaining and
operating the WCF. However, we found that DOL policy shares the WCF responsibilities
between the CFO and the ASAM. This segregation of responsibility resulted in the lack
of a “single point of accountability” for WCF operations and the availability of one point
of contact for customer agency inquiries and concerns.

Secretary’s Order 04-2009, Authority and Responsibilities for Implementation of the
Chief Financial Officers Act of 1990 and Related Legislation, January 15, 2009, states
that the CFO is responsible for maintaining and operating the WCF. Maintain and
operate the WCF that:

          •		 Ensures customer agencies access to meaningful information on the full
              costs of those centralized services, conditions for usage, and the cost
              allocation formulas employed in the lawful distribution of annual charges
              against the respective agency appropriation accounts; and

                                                                      DOL Working Capital Fund
                                            4                       Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 





          •		 Ensures, through the creation and regular convening of a WCF
              Committee, the opportunities for meaningful and informed customer
              agency participation or representation in reviewing WCF activities, costs,
              and charges, and in recommending changes or improvements to the CFO.

We found that DOL policy did not meet the intent of the Secretary’s Order. The
Department of Labor Manual Series (DLMS) 6, Chapter 1200, Section 1207, showed
the WCF responsibilities were shared between the OCFO and OASAM, and the WCF
Committee had a review role over WCF operations. The OCFO responsibilities included
developing policies affecting WCF management, determining customer agency
contributions, and maintaining a pricing strategy to ensure customer agencies were
properly charged for cost incurred by WCF service providers. OASAM responsibilities
included preparing the annual WCF budget submission, apportionments and budget
levels, as well as the WCF employment and staffing patterns. The WCF Committee
review role over WCF operations consisted of meetings twice a year. However, the
OCFO did not document the meeting results and decisions made. Customer agency
representatives who attended the WCF Committee meetings told us they did not feel
they were meaningful and only used to provide budget estimates and assessments.

The Department believes the sharing of responsibilities as described in DLMS 6,
Chapter 1200 is consistent with the intent of the Secretary’s Order. Officials stated there
is a history of shared oversight over WCF operations among the CFO, ASAM, and the
WCF Committee. By reviewing the context of the CFO’s WCF responsibilities and
comparing them to other non-WCF financial program responsibilities described in the
previous Secretary’s Order — 1-97, dated January 10, 1997 — and the current
Secretary’s Order, the CFO is responsible for the accounting and running of the fund’s
daily operations, not managing it. Management implies broader authority, responsibility,
and control.

We disagree that the Department’s sharing of responsibilities, as described in DLMS 6,
Chapter 1200, is consistent with the intent of the 2009 Secretary’s order. Comparing the
1997 Secretary’s Order to the 2009 Secretary’s Order shows that the CFO’s role
changed from overseeing the WCF to operating and maintaining the WCF. Regardless
of the Department’s interpretation of the 2009 Secretary’s Order, the WCF operations
needed a central point of accountability and oversight. Without this, the Department did
not ensure that customer agencies had access to meaningful information on the full
costs of the WCF services, conditions for usage, or the cost allocation formulas
employed in the lawful distribution of annual charges against the respective agencies’
appropriation accounts.

Department officials believe that customer agencies were provided meaningful
information and opportunities for participation and representation. Department officials
stated that, at least four weeks prior to a WCF meeting, the OCFO solicits customer
agencies' questions and concerns. At the meetings, customer agencies are provided
with detailed information and a forum to ask questions, voice their concerns, and

                                                                      DOL Working Capital Fund
                                             5                      Report No. 03-10-002-13-001
                                            U.S. Department of Labor – Office of Inspector General 




request additional information, follow up, and meetings with OCFO WCF staff. Officials
said that the OCFO also communicates other information during the year that is relevant
to WCF operations.

Our review of documentation provided throughout the audit and our discussions with
customer agency representatives found that the CFO did not provide customer
agencies meaningful information or opportunities for participation and representation in
the WCF meetings.

Finding 2 — The CFO did not demonstrate that 16 percent of the services and
            activities financed through the WCF were appropriate and
            advantageous to the Department as required by law.

DOL’s process for reviewing and adding services and activities to the WCF was not
adequate because it did not include a determination of how services and activities met
legislative requirements and it did not include input from the WCF Committee. Our
analysis of all 127 WCF services and activities identified 20 (16 percent) that did not
appear to represent common administrative services and activities that were
appropriate to be provided to customer agencies on a centralized basis. For FY 2008,
the costs charged for these 20 services and activities were $12.5 million. Although DOL
described a review process they used, they provided no evidence of how they
determined these services and activities to be appropriate and advantageous. As a
result, customer agencies may continue to expend more than $12.5 million on these 20
services and activities that may not be advantageous to the Department.

The legislation authorizing the DOL WCF, codified in Title 29, United States Code
(29 U.S.C.), Sections 563, 563a, and 564, provided that the WCF be available for
expenses necessary for the maintenance and operation of a comprehensive program of
centralized services which the Secretary of Labor may prescribe and deem appropriate
and advantageous. Sections 563 and 564 listed the following eight services and
activities that DOL could fund through the WCF:

          1.   central reproduction
          2.   central visual exhibit
          3.   central supply for supplies and equipment
          4.   central tabulating
          5.   telephone, mail, and messenger
          6.   central accounting and payroll
          7.   a central laborers' service
          8.   personnel functions in regional administrative offices

Section 563a gave the Secretary of Labor some discretion in selecting items for the
WCF as long as they provided for the maintenance and operation of a comprehensive
program of centralized services which the Secretary deemed appropriate and
advantageous. Neither the legislation nor DOL policy defined a comprehensive program
of centralized services. Therefore, based on our understanding of cost principles, we

                                                                       DOL Working Capital Fund
                                             6                       Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 




concluded that organizations typically provide common administrative activities, such as
procurement, accounting, and information technology, to operating units on a
centralized basis, either at the same location or by the same group, for purposes of
economy and efficiency.

DOL’s policy in DLMS 6, Financial Management WCF, Chapter 1207c(8), requires DOL
officials to conduct periodic reviews of the WCF service organizations to determine if
they are appropriate. Additionally, DLMS 6, Chapter 1207 (a), explains that WCF
Committee responsibilities include reviewing the programs, functions, and activities
performed and financed through the WCF or proposed to be performed and financed
through the WCF.

DOL developed the Pricing Strategies Pamphlet to provide a description of WCF
services and activities, the associated Responsibility Center Code (RCC) and the
allocation method used to charge costs. WCF authorizing legislation also specifies
services for which the WCF should be available. We compared the two documents and
used auditor judgment to determine if the services and activities that DOL categorized
as WCF met the legislative intent; that is, they were centralized in nature.

Of the 20 services and activities that did not appear to be centralized, 6 consisted of
offices that provided direction, administration, and oversight that should be covered
under appropriated funds for Departmental Management. Others, such as the Executive
Secretariat, Program, Planning and Results Center, and Regional Offices of Public
Affairs (OPA) did not appear to represent centralized services available to all the
Department’s agencies. There was no information in the Pricing Strategies Pamphlet for
the Information Technology Center (ITC) Reimbursable and Division of MEO
Management. The following table lists the 20 services and activities that did not appear
to be centralized and their FY 2008 costs.




                                                                     DOL Working Capital Fund
                                           7                       Report No. 03-10-002-13-001
                                              U.S. Department of Labor – Office of Inspector General 





Table 1 – List of Services and Activities That Did Not Appear to be Centralized 

                                                                                        FY 2008
            Service and Activity 	                       Explanation                     Costs
      Business Operations Center 	        Provides direction, administration, and
 1. 	                                                                                     $782,828
      (BOC), Office of the Director 	     management services. 

                                          Provides support and oversight of the 

        BOC Division of Procurement
 2. 	                                     Departments’ acquisition and grants             $186,205
        Policy
                                          process. 

    BOC, Office of Administrative 	       Provides direction, administration, and 

 3. 	                                                                                     $493,971
    Services, Office of the Director 	    management services. 

    BOC, Office of Administrative 	       Provides guidance and direction of the 

 4. Services, Office of Facilities 	      Director over facilities management             $464,993
    Management 	                          services. 

                                          Provides Departmental leadership on 

    Office of Security and
                                          all matters of National Security,
 5. Emergency Management, 	                                                               $568,914
                                          Homeland Security, and emergency
    Immediate Office
                                          management for DOL. 

                                          Provides Department-wide policy, 

        Office of the Chief Information
 6. 	                                     oversight, and management to ensure           $3,569,261
        Officer
                                          compliance with IT laws.
	

                                          Provides clearance and concurrence
	   

 7. 	 	Executive Secretariat              of the Department’s communications            $3,762,940
                                          and correspondences.
                                          Performs research on the history of
                                          the programs and policies of DOL.
    Program, Planning and Results 	       The Historian conducts interviews with
 8. Center, Historian and Freedom 	       Department officials when they leave            $169,271

    of Information Acts 	                 office and responds to queries from 

                                          outside institutions and the general 

                                          public. 

                                          Provides the Department with a 

                                          regional information educational 

                                          program designed to bring about the 

9.- OPA Region (10 Regions and 	          widest possible public understanding
                                                                                        $2,271,183

18. 	 Cost Centers)                       and support of the Department’s
                                          programs and services and help
                                          ensure compliance with Department
                                          laws.
19. ITC Reimbursable 	                    Not in the Pricing Strategies Pamphlet        $158,000
20. Division of MEO Management 	          Not in the Pricing Strategies Pamphlet        $111,590
Total Costs for FY 2008 	                                                             $12,539,150

Department officials believed that the first four items listed in Table 1 were for direct
management and oversight of services and processes in the WCF; and therefore, the
costs associated with these needed to be included in the WCF.

We disagree that the costs for management and oversight solely justifies its inclusion in
the WCF. Portions of the costs for the management and oversight listed in Table 1 were

                                                                         DOL Working Capital Fund
                                                8                      Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




also charged to Departmental Management. However, the Department did not show
how it determined that the basis for allocating costs between the WCF and
Departmental Management was appropriate and advantageous to the WCF.

Department officials believed that the remaining items listed in Table 1 provided
services that were used by all agencies and an in-depth review of their activities clearly
showed that centralization of Departmental activities was integral to the services the
offices provided.

Our review of documentation provided to us during the audit did not include any
in-depth review of WCF services and activities or how they were clearly centralized and
appropriate and advantageous for the WCF.

DOL’s process for reviewing and adding services and activities to the WCF was not
adequate because it did not include a determination of how services and activities met
legislative requirements and it did not include input from WCF Committee, the latter
required by DOL policy. DOL officials stated they used the Department’s annual budget
process for reviewing and adding services and activities to the WCF. This process
consisted of OASAM’s Departmental Budget Center preparing an analysis of the WCF
budget submission and providing it to the Deputy Secretary of Labor and the
Departmental Budget and Performance Team for their consideration of the proposed
WCF budget. For new initiatives for the WCF, advisement was sought from the Solicitor
of Labor as to whether new initiatives are eligible to be WCF items. DOL officials stated
there are often meetings with the service providers for additional information on their
proposed WCF initiatives. They also explained that many of the items were added to the
WCF years ago and, therefore, they did not have documentation to substantiate the
initial review process.

We concluded that DOL’s decision-making process was not adequate because it did not
consider if the proposed initiatives were appropriate and advantageous to WCF and did
not involve the WCF committee. Our review of the Analysis of the Working Capital Fund
FY 2008 Budget Submission showed that the main consideration for including items in
the WCF was the cost of the service. For example, OASAM requested $71,000 for the
continuing operation and maintenance of the E-Procurement System under
Procurement Support. DOL’s justification for not approving this initiative was that the
requested amount could be absorbed within current operations. In contrast, OASAM
requested $2 million for its Human Resource Line of Business, which DOL approved
without documenting how the fund would be used for a centralized service or activity
that was appropriate and advantageous. The Departmental Budget and Performance
team did not include the WCF Committee in the decision-making process. Furthermore,
although OASAM officials told us that they conducted workshops in 2008 with the WCF
Committee’s designated representatives for the purpose of evaluating all the WCF
service and activities, we were provided no documentation to substantiate what
occurred or what decisions were made as a result of the workshops.




                                                                      DOL Working Capital Fund
                                             9                      Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




As a result of the inadequacies in DOL’s process for reviewing and adding services and
activities to the WCF, customer agencies may continue to expend more than
$12.5 million on services and activities that may not be advantageous to the
Department. Additionally, without involvement of the WCF Committee, there is a lack of
transparency to the customer agencies on how items are added to the WCF and how
they are beneficial to the customer agencies that fund the WCF.

Finding 3 — The WCF budget process did not provide reasonable estimates of
            funds needed from the customer agencies.

The Department did not ensure the WCF budget process provided reasonable
estimates of funds needed to be collected from the customer agencies to reimburse the
service providers for their costs. This negatively impacted the customer agencies’ ability
to manage their appropriated funds. Our analysis of FYs 2006 through 2008 showed
that the estimated funds needed (referred to as anticipated collections) in the WCF
spending plans fluctuated widely and were disproportionate to the actual amount of
funds collected. This occurred because DOL did not have procedures designed to
analyze budget estimates and cost trends so that adjustments could be made from year
to year. Instead, DOL relied on general Departmental budget guidance that was not
specific to the WCF.

Federal guidelines for agency budgets are contained in the Office of Management and
Budget (OMB) Circular A-11, Preparation, Submission, and Execution of the Budget.
Section 120.22 of A-11 states that agencies should ensure that the apportionment and
its supporting financial plan are based on a careful forecast of obligations to be incurred
under the work programs or operations planned during the year. Section 120.32 further
requires agencies to use appropriate internal controls in preparing apportionment
requests.

For the WCF budget, OASAM budget officials prepared the Standard Form (SF) 132,
Apportionment and Reapportionment Schedule, which was a plan, approved by OMB,
to spend resources provided by law. The primary purpose of the apportionment was to
prevent agencies from obligating funds in a manner that would require deficiency or
supplemental appropriations and achieve the most effective and economical use of
amounts made available. The SF-133, Report on Budget Execution and Budgetary
Resources, allows monitoring of the SF-132. For the WCF, the SF-132 contained the
amount of anticipated collection of funds needed from customer agencies for the
estimated WCF costs and the SF-133 reported the amount of actual collections
received from the customer agencies for the actual WCF costs. OASAM and the OCFO
used the SF-132’s estimated amounts as the basis for determining each customer
agency’s share of WCF estimated costs, which they were to include in their respective
agency budget estimates so the funds would be available for the OCFO to collect.

OASAM budget officials explained that they used the general departmental guidance,
which was not specific to the WCF, in preparing the WCF budget estimates. In addition
to the Departmental guidance, the OASAM budget officials stated that they established

                                                                      DOL Working Capital Fund
                                            10                      Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




practices for determining the WCF estimates which included, requesting potential
changes/new incentives/special projects, using the prior-year request amounts as the
base, and using OMB inflationary factors. According to the Department, at the time the
President’s Budget is transmitted to Congress, the total amount of the WCF is
supported by total expected payments in the Agency budget requests as displayed in
the object class tables in the Congressional Budget Justifications.

Our three-year comparison of the SF-132s and SF-133s showed WCF estimates of
agency collections were consistently unreliable. For FY 2006, the budgeted anticipated
collections were approximately $2.6 million less than what was actually collected from
customer agencies. Conversely, for FYs 2007 and 2008, the budgeted anticipated
collections were more than actual collections by $7.2 million and $6.3 million
respectively. The following table provides a comparison of the anticipated collections
reported on the SF-132 to the actual collections reported on the SF-133 for FYs
2006-2008:

   Table 2 – Comparison of Anticipated Collections to Actual Collections From 

             Customer Agencies for FY 2006 though FY 2008 

   Collections Reported                 FY 2006          FY 2007          FY 2008 

   Anticipated Collections (SF-132)    $154,690,000 $178,264,000             $187,955,000
   Actual Collections (SF-133)         $157,316,815 $171,039,351             $181,692,325
   Difference                           $(2,626,815) $ 7,224,649             $ 6,262,675

Because customer agencies are required to include in their own budget estimates the
portion of WCF anticipated collections that are assigned to them by the Department, the
lack of reasonable budget estimates negatively impacts the customer agencies’ ability
to manage their appropriated funds. For example, in FY 2008, 3 of the 13 customer
agencies received refunds totaling $1,152,413 at the end of the fiscal year, making it
difficult for them to effectively plan how to use these funds. Our analysis of one of the
three agencies showed that, in addition to the $875,099 WCF refund the agency
received, the OCFO also collected $376,423 less than what it had originally estimated
for the agency’s WCF assessment. As a result, the agency had $1,251,522 in funds
available to it at the end of the fiscal year, which left very little time to determine how
best to use the funds.

Department officials stated that DOL has not had a full-year appropriation prior to the
beginning of the fiscal year in more than 10 years. Because of this, the initial SF-132 for
the WCF is based on the budget request to Congress. Once a final budget is enacted,
WCF operations are adjusted for new targets and a new SF-132 is generated. The total
amount on the new SF-132 is used to re-estimate agency charges and those estimates
are shared with the agency. Department officials also stated that the SF-132 and
SF-133 usually do not match because the WCF is not funded through direct
appropriations, but through collection of agency appropriations. The SF-132 sets the
maximum that can be obligated in the WCF, but often total obligations are below the
maximum. Since the WCF can only collect on services rendered instead of authorized
by the SF-132, the actual collections will differ from anticipated collections.

                                                                      DOL Working Capital Fund
                                            11                      Report No. 03-10-002-13-001
                                            U.S. Department of Labor – Office of Inspector General 





Our analysis of data from the new SF-132s found that the difference between actual
and anticipated collections still exceeded $1 million. We agree with the Department that
the actual collections will differ from the anticipated collections, but it must develop and
implement procedures that will decrease the amount of the difference. To that end, the
CFO told us that the Department is currently finalizing a contract for an evaluation of
DOL’s collection and expenditure of WCF assessments.

We concluded that using general departmental guidance, which is not specific to the
WCF, is not adequate, as demonstrated in our analysis of the data from the SF-132 and
SF-133. The process needs to consider historical data to develop estimates, verify cost
data submitted by service provider agencies, and adjust the estimates accordingly.

Finding 4 — The CFO could not always demonstrate that the methodology used
            for allocating costs was appropriate and the supporting data used to
            charge the costs were accurate.

The OCFO did not always have sufficient information available to demonstrate that the
methodology used for allocating costs to customer agencies was appropriate, did not
use an appropriate method to allocate costs for the National Call Center, or did not have
sufficient information available to support that the data used to charge the costs were
accurate. This occurred because the OCFO did not have a decision-making process in
place that involved all responsible parties to ensure sufficient information was obtained
and reviewed to evaluate the appropriateness and equity of the bases used to allocate
and charge WCF costs to the customer agencies. Additionally, the OCFO’s procedures
did not allow for independent reviews of the allocation calculations or supporting data by
customer agencies. As a result, DOL officials cannot demonstrate the appropriateness
of the allocation methods it used for 11 (16 percent) of the 70 service providers, or that
approximately $15.7 million in costs were equitably allocated.

DLMS 6, Chapter 800, Managerial Cost Accounting, Section 827, Cost-Benefit
Considerations, provided the order of preference for assigning costs as follows:
(1) directly tracing costs whenever feasible and economically practicable; (2) assigning
costs on a cause-and-effect basis; and (3) allocating costs on a reasonable and
consistent basis. Additionally, when assigning costs, agency management should
consider the cost-benefit aspects of gathering, recording, processing, reporting, and
reconciling managerial cost accounting information. DLMS 6, Chapter 1200, Financial
Management Section 1207 a(3) gave the WCF Committee the responsible for reviewing
the proposed and existing programs, functions, and activities performed through the
WCF. Additionally, the WCF Committee is responsible for evaluating the
appropriateness and equity of cost allocation percentages used in DOL’s accounting
system and approving the strategies for billing.




                                                                       DOL Working Capital Fund
                                             12                      Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 




The OCFO did not have sufficient information available to demonstrate that the
methodology used for allocating costs for 11 service providers was appropriate.

The OCFO did not have sufficient information to support the appropriateness of the
method used to allocate costs for 11 (16 percent) of the 70 service providers in the
WCF. The cost for these 11 service providers in FY 2008 was approximately
$15.7 million. For example, the Division of Space and Telecommunications is described
as providing assistance for real property acquisition and space and administering the
General Services Administration space rental bill. The cost for this service provider was
allocated based on National Office employees, excluding the Bureau of Labor Statistics
(BLS). Additionally, the method applied a 25 percent discount to agencies outside of the
Frances Perkins Building (FPB) — Employment Standards Administration (ESA),
Solicitor of Labor, and the Mine Safety and Health Administration (MSHA). Neither
OCFO nor the service provider had information to explain why they used employment
instead of usage to allocate space and telecommunication costs, or how they
determined the 25 percent discount for the outside agencies. See Exhibits 1 through 3
for a list of the 11 service providers for whom OCFO did not have sufficient information
to support the appropriateness of the method used to allocate service provider costs to
customer agencies.

The OCFO did not use an appropriate method to allocate costs for the National Call
Center.

We found one instance where, given available information, we determined the allocation
method OCFO used to allocate a service provider’s cost was not appropriate. For the
National Call Center, OCFO used employment levels to allocate costs when it would
have been more appropriate to have used the usage method, as the National Call
Center had a system to track calls pertaining to specific customer agencies. For FY
2008, the costs allocated for the National Contact Center totaled $2,862,665.

The OCFO did not have sufficient information available to support that the data used to
charge the costs was accurate.

The OCFO’s process for allocating costs to customer agencies lacked controls in that it
did not provide the supporting data used to allocate cost to customer agencies so that
they could review its accuracy. To allocate usage costs, the service providers submitted
a Cost Recovery Report (CRR) on a monthly basis to the OCFO to be processed and
entered into the WCF module for subsequent allocation. Each service provider’s CRR
contains activity cost data specific to the customer agency that used the service. The
OCFO accepted the data without further review and allocated the costs to the customer
agencies using the WCF module in DOL’s accounting system.

The OCFO provided a monthly WCF Status Report — the D331 — to customer
agencies that provided only current month and year-to-date charges without any detail
to support how the charges were derived. Several customer agencies told us they
wanted to know the detailed information that supported the charges in the D331. For

                                                                     DOL Working Capital Fund
                                           13                      Report No. 03-10-002-13-001
                                            U.S. Department of Labor – Office of Inspector General 




example, one customer agency said that for the Transit Subsidy service category they
wanted the detail supporting the allocation in order to verify that the list of employees for
their specific agency was accurate.

The Department believed that customer agencies do have adequate access to detailed
cost data for charges through the WCF. Department officials stated that the OCFO has
always served as a point of liaison between service providers and customer agencies
by providing detailed information to the latter upon their request and also setting up
meetings, as needed, between the parties to provide a better understanding of the
charges and/or services provided. Department officials also stated that all customer
agencies receive a copy of the D331 along with copies of the CCR for further detailed
information of the charges reflected in the D331.

Our discussions with customer agency representatives found that the OCFO did not
provide customer agencies with detailed cost data. Regardless, to do so on only a
request basis is not sufficient. For control purposes, the OCFO needs to routinely
provide customer agencies support for the information in the D331 and the CCR, so
they can verify that the usage data used to allocate the costs for their respective
agencies are accurate.

Finding 5 — The CFO did not have monitoring controls in place to review non-
            personnel costs that service providers charged to the WCF.

The OCFO had no monitoring controls in place to review the non-personnel costs that
service providers charged to ensure they were properly charged to the WCF. Our
judgmental sample of 30 transactions totaling more than $36 million found that five
transactions totaling $1.3 million, in which the costs were re-categorized from non-WCF
cost centers to WCF costs center; were not related to the WCF; or occurred outside the
contract’s performance period, the latter of which were unallowable. OCFO officials told
us the DOL accounting system in place at the time of our audit could not provide the
cost reports necessary to review the costs charged to the WCF, and they agreed that a
monitoring process should be established.

OMB Circular A-123, Management’s Responsibility for Internal Control, Section II,
Standards, requires that periodic reviews, reconciliations or comparisons of data should
be included as part of the regular assigned duties of personnel. DLMS 6, Chapter 1200,
Section 1207(b)(4) provided that the OCFO, in cooperation with OASAM, is responsible
for prescribing procedures to ensure the fiscal soundness and efficient management of
the WCF and maintaining and operating an appropriate accounting system reflecting
fund receipts and disbursements, and costs and charges incurred by customer
agencies. The Federal Acquisition Regulation (FAR) Subpart 31.201-2 (a)(4),
Determining Allowability, states that a cost is allowable only when the cost complies
with the terms of the contract.




                                                                       DOL Working Capital Fund
                                             14                      Report No. 03-10-002-13-001
                                                U.S. Department of Labor – Office of Inspector General 




Costs were recategorized as WCF charges without justification.

For FY 2008, two transactions totaling $646,859 were originally obligated to non-WCF
cost centers but were later charged to the WCF without an explanation as to what had
occurred to justify the recategorization. The details of each transaction follow:

Transaction 1

The Office of the Secretary (OSEC) reversed costs and charged them to a WCF cost
center — the Executive Secretariat — that were originally obligated to a non-WCF cost
center — Departmental Management, Program Direction and Support. These costs
related to a contract providing administration and management support for services
such as help desk activities, liaison between OSEC and visitors, file maintenance,
meeting preparation and organization, correspondence reviewing and editing, and
phone call screening. The Pricing Strategies Pamphlet describes the Executive
Secretariat as charges for the clearance and concurrence of the Department's
communications and correspondence. OSEC originally charged $381,371 to the
non-WCF cost center, but at the end of the fiscal year, reversed $318,799 of the costs
to the WCF cost center. OSEC and the OCFO did not have documentation explaining
why the costs were reversed and, ultimately, $581,973 was charged to the Executive
Secretariat. Prior to FY 2008 — from February 2005 through September 30, 2007 —
$963,493 in costs for these same support services were charged to the non-WCF cost
center.

Transaction 2

OASAM charged a portion of costs to the ITC Office of the Chief Information Officer
(OCIO) WCF cost center that were originally obligated to the ITC OCIO non-WCF cost
center. The costs were for a blanket purchase agreement (BPA), in which a contractor
provided systems development life cycle support for the Department’s implementation
of the Homeland Security Presidential Directive-12. The Pricing Strategies Pamphlet
describes the ITC OCIO as charges for services to support Department-wide policy,
oversight, and management to ensure compliance with various federal laws and
initiatives concerning IT. During the fiscal year, obligations to incrementally fund the
BPA were made to the non-WCF cost center. However, $64,886 of the total $296,625
paid for the BPA was charged to the ITC WCF cost center 1 . An ITC official told us they
could use any funding that was available at the time to pay the BPA costs. The ITC
official provided DL Form 1-280 which authorized the transfer of funds from the
non-WCF cost center to the WCF cost center. The document showed only that the
transfer was due to an administrative error that was being corrected.




1
    The remaining $231,739 was charged to the ITC OCIO non-WCF cost center.

                                                                           DOL Working Capital Fund
                                                 15                      Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




Costs not related to the WCF were charged to the WCF.

DOL charged contract costs of $600,000 for interagency agreement costs that were not
related to the WCF. The costs were for an interagency agreement between DOL and
the Federal Emergency Management Agency (FEMA) in the Department of Homeland
Security for developing and maintaining an online disaster benefits portal to provide
quick and efficient disaster assistance benefits program information to the general
public and creating a single ad hoc applicant interview for multiple disaster assistance
programs. We determined that based on the nature of the agreement with FEMA, the
costs should be charged to only the agencies providing benefits in the event of a major
disaster, which within DOL would be the Employment and Training Administration
(ETA). Therefore, the Department should not have charged the agreement costs to the
WCF.

Unallowable contract costs were charged to the WCF.

For two transactions, unallowable contract costs totaling $118,704 were charged to the
WCF. One was because the costs were for services rendered prior to the period
specified in the contract and the other was for services related to a prior contract. The
details of each contract follow:

Transaction 1

On September 28, 2007, OASAM awarded a labor-hour contract for the Emergency
Management Center for emergency management center and pandemic influenza
planning support services. The performance period was October 1, 2007, through
September 30, 2008. A payment for $66,178.35 was disbursed on March 27, 2008, for
an invoice showing that it was for services rendered September 1 through 30, 2007.
Because this was outside the period of performance specified in the contract and task
order, the costs are unallowable.

Transaction 2

On September 18, 2007, OPA received a labor-hour contract for comprehensive
communications and customer support services for the DOL call center. The
performance period for the base year, was October 1, 2007, through September 30,
2008, with three succeeding option years through September 30, 2011. A payment for
$52,526 was disbursed on June 23, 2008, for an invoice showing that it was for services
rendered through September 30, 2007, which was before the period of performance for
the contract. Further review showed the invoice did not reference the contract number
and the invoice’s support document listed the contractor employee and hours but did
not provide the dates worked. Because this invoice was outside the period of
performance specified in the contract, the costs are unallowable.

The Department disagreed that unallowable costs were charged to the WCF because
both of the sampled transactions were for multi-year contracts, which allowed for

                                                                      DOL Working Capital Fund
                                            16                      Report No. 03-10-002-13-001
                                         U.S. Department of Labor – Office of Inspector General 




payments for services rendered for the month of September 2007, to be made during
FY 2008.

We did not agree with the Department because the sampled items questioned were for
contracts in which the original multi-year contract had ended and the subsequent
contract was awarded to the same vendor. Therefore, the costs related to the prior
contract should not be charged to the subsequent contract.

RECOMMENDATIONS

We recommend that the Chief Financial Officer:

1. Revise the DLMS 6, Chapter 1200 to assign a single authority over WCF operations
   from budget formulation to execution.

2. Formalize the process for reviewing WCF services and activities to include
   involvement of the WCF Committee and ensuring that the determination that the
   services are appropriate and advantageous to the WCF is documented and
   available to the customer agencies.

3. Review, with the WCF Committee, the 20 services cited in the report to determine if
   they are appropriate and advantageous, and document the determination.

4. Ensure that the Pricing Pamphlet includes all WCF services and activities and
   provides an adequate description of the services provided so that the user agencies
   understand how they are benefitting from the services being charged.

5. Ensure the Pricing Pamphlet is updated annually, the WCF Committee works with
   OASAM and the CFO to ensure it is accurate and complete, signed off by all parties,
   and made available to the customer agencies on the OCFO website.

6. Develop policies and procedures for staff to follow when preparing WCF budget
   estimates. This should include procedures for:

      •		 Involving the WCF Committee in the budget process;

      •		 validating the estimates submitted by the service providers; and

      •		 incorporating trend analysis of prior-year budgets to identify adjustments
          needed to address the cause(s) of estimates that were disproportionate to the
          WCF charges.

7. Develop and implement procedures for reviewing the allocation methodologies
   which includes involvement of the WCF Committee.




                                                                    DOL Working Capital Fund
                                          17                      Report No. 03-10-002-13-001
                                         U.S. Department of Labor – Office of Inspector General 




8. Develop a process to provide customer agencies sufficient information to support
   cost assessment.

9. Develop and implement procedures for performing periodic reviews of costs charged
   to the WCF by service providers

We appreciate the cooperation and courtesies that OCFO and OASAM personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                    DOL Working Capital Fund
                                          18                      Report No. 03-10-002-13-001
             U.S. Department of Labor – Office of Inspector General 





Exhibits 





                                        DOL Working Capital Fund
              19                      Report No. 03-10-002-13-001
             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                        DOL Working Capital Fund
              20                      Report No. 03-10-002-13-001
                                              U.S. Department of Labor – Office of Inspector General 




                                                                                         Exhibit 1
Allocation Methods With Insufficient Information

    Office of Administrative Services
    Division of Space and Telecommunications
    RCC 6520QDB8,
    FY 2008 Costs - $1,378,365.91

1 Costs were allocated based on National Office employees, excluding BLS. A 25 percent
  discount was applied to agencies outside of the FPB — ESA, Solicitor of Labor, and MSHA.

    OCFO did not have sufficient information explaining how the 25 percent discount for the out
    side agencies was determined, or why employment was used instead of usage for space and
    telecommunications.
    Office of Administrative Services,
    Division of Customer Services,
    Moving Services
    RCC 6510QDB8
    FY 2008 Costs - $130,725.64
2
    Most costs were directly charged based on usage; however, a portion was allocated based on
    FPB employment.

    OCFO did not have sufficient information explaining why employment was used for a portion
    of the costs instead of usage for moving services.

    Office of Administrative Services,
    Division of Customer Services
    RCC 6510QDB8
    FY 2008 Costs - $ 479,281.46

3 Costs were allocated based on National Office employees, excluding BLS and MSHA . A 50
  percent discount was applied to agencies outside of the FPB — ESA, Solicitor of Labor, and
  the OSEC.

    OCFO did not have sufficient information explaining how the 50 percent discount for the out
    side agencies was determined or why this methodology differed from the one used to allocate
    costs for the Division of Space and Telecommunications (See Number 1).




                                                                         DOL Working Capital Fund
                                               21                      Report No. 03-10-002-13-001
                                              U.S. Department of Labor – Office of Inspector General 





    Office of Administrative Services, Division of Facilities Management
    Office of the Director
    RCC 6581QDB8
    FY 2008 Costs - $1,552,101.10
4
    Costs were allocated based on National Office employment.

    OCFO did not have sufficient information explaining why this method was not consistent with
    methods used for the other Office of Administrative Service cost centers related to FPB
    facilities management.

    Regional Expenses
    RCC 6200QDB6
    FY 2008 Costs - $4,392,198.23

5 Costs were allocated based on regional employment. The costs consisted of Federal
  Employees’ Compensation Act (FECA) payments and arbitration fees.

    OCFO did not have sufficient information describing the nature of the FECA payments and
    arbitration fees in order to determine if using regional employment was more appropriate than
    charging the costs directly to the employing agency.

    Human Resources Center,
    Office of Executive Resources and Personnel Security
    RCC 6110QDCJ
    FY 2008 Costs $910,386.51
6
    The majority of the costs (89 percent) were allocated to OASAM and OSEC client agencies,
    and the remaining amount (11 percent) was allocated based on employment.

    OCFO did not have sufficient information explaining how the percentages were determined
    and the client agencies were not identified.

    Human Resource Center
    Office of Human Resources Consulting and Operations (OHRCO)
    RCC 6120QDCJ
    FY 2008 Costs - $1,782,590.55
7
    The majority of the costs (89 percent) were allocated to OASAM and OSEC client agencies,
    and the remaining amount (11 percent) was allocated to DOL employment.

    OCFO did not have sufficient information explaining how the percentages were determined
    and the client agencies were not identified.




                                                                         DOL Working Capital Fund
                                               22                      Report No. 03-10-002-13-001
                                             U.S. Department of Labor – Office of Inspector General 





     Human Resource Center OHRCO
     Division of Operations and Systems
     RCC 6125QDCJ
     FY 2008 Cost – Reported in RCC 6120QDCJ
 8
     A portion of the costs were allocated to OASAM and OSEC client agencies, 89 percent, and
     the remaining amount (11) percent was allocated to DOL employment.

     OCFO did not have sufficient information explaining how the percentages were determined:
     and the client agencies were not identified.


     Office of Acquisition Management Services,
     Division of Procurement Policy
     RCC 6270QDB8
     FY 2008 Costs - $282,566.72
 9
     Costs were allocated based on DOL employment.

     OCFO did not have sufficient information available to determine why using DOL employment
     as an allocation bases was more appropriate than using procurement activity.

     BOC- Office of Competitive Sourcing
     RCC 6280QDB8
     FY 2008 Costs - $479,631.74
10
     Costs were allocated based on DOL employment.

     OCFO did not have sufficient information available to determine why using DOL employment
     as an allocation bases was more appropriate than basing it on the level of effort DOL
     agencies are involved in competitive sourcing.
     Office of the Secretary, Executive Secretariat
     RCC 6001QDB8
     FY 2008 Costs 4,349,070.63
11 Costs were allocated based on DOL employment.

     OCFO did not have sufficient information on the type of communication and correspondences
     processed in order to determine if using DOL employment as an allocation bases was more
     appropriate than agency usage.




                                                                        DOL Working Capital Fund
                                              23                      Report No. 03-10-002-13-001
              U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK
	





                                         DOL Working Capital Fund
               24                      Report No. 03-10-002-13-001
               U.S. Department of Labor – Office of Inspector General 





Appendices 





                                          DOL Working Capital Fund
                25                      Report No. 03-10-002-13-001
              U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK
	





                                         DOL Working Capital Fund
               26                      Report No. 03-10-002-13-001
                                            U.S. Department of Labor – Office of Inspector General 




                                                                                   Appendix A
Background

The WCF is an intergovernmental revolving fund that operates as a self-supporting
entity conducting business-like activities. It functions entirely from the fees charged to
customer agencies for the services it provides. In DOL, the WCF was established by
PL 85-67 in June 1957, and amended by PL 86-703 and PL 91-204, and is available
without fiscal year limitation for the operation of a comprehensive program of centralized
services as deemed appropriate and advantageous by the Secretary of Labor.
Organizations typically provide common administrative activities, such as procurement,
accounting, and information technology, to operating units on a centralized basis, either
at the same location or by the same group, for economy and efficiency purposes.

Sections 563 and 564 listed the following eight services and activities that DOL could
fund through the WCF:

          1.   central reproduction
          2.   central visual exhibit
          3.   central supply for supplies and equipment
          4.   central tabulating
          5.   telephone, mail, and messenger
          6.   central accounting and payroll
          7.   central laborers' service
          8.   personnel functions in regional administrative offices

In 1993, the law was amended and codified in 29 U.S.C., Section 563a, and gave the
Secretary of Labor some broad discretion as to what services were deemed appropriate
to finance through the WCF.

DOL’s WCF services and activities include budget, accounting, payroll, procurement,
human resources, information technology, and telecommunication. The WCF services
and activities are paid for by means of reimbursement in advance from DOL customer
agencies to return the full cost of operations to the service providers. In FY 2008, WCF
budgetary resources totaled $192.6 million. The WCF is part of the Departmental
Management Budget, which for FY 2008 was $291.9 million. DOL’s enacted budget for
FY 2008 was $49.8 billion, which consisted of $11.6 billion for discretionary programs
and $38.2 billion for mandatory programs, which consist of advances to the
Unemployment Trust Fund and Pension Benefit Guaranty Corporation.

Secretary’s Order 04–2009, Authority and Responsibilities for Implementation of the
Chief Financial Officers Act of 1990 and Related Legislation, January 15, 2009,
assigned the CFO the responsibility for maintaining and operating the WCF. DOL policy
in the DLMS 6, Chapter 1207, September 2, 2001, provided that the CFO and the
ASAM cooperate and partner with each other in meeting their responsibilities for various
aspects of operating and administering the WCF. Additionally, the WCF Committee,



                                                                       DOL Working Capital Fund
                                             27                      Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 




which consists of senior management officials from the OCFO, OASAM, and the
administrative officer of customer agencies, has a review role over WCF operations.

The WCF committee is suppose to meet twice annually and has the following
responsibilities:

   •		 Reviewing overall policies, procedures, systems, and regulations to ensure their
       currency, effectiveness, and compliance in administering the WCF.

   •		 Reviewing the WCF budget and making recommendations for changes and/or
       modifications as necessary.

   •		 Reviewing the programs, functions, and activities performed and financed
       through the WCF or proposed to be performed and financed through the WCF,
       and evaluating the appropriateness and equity of cost allocation percentages
       used in the WCF subsystem in DOL’s accounting system.

   •		 Developing and implementing a system of performance measures to evaluate
       efficiency and effectiveness of fund operations, e.g., processing times, cost and
       quality of outputs, and customer satisfaction.

   •		 Reviewing periodically, either through WCF Committee meetings or reports
       furnished by OASAM and OCFO, the status of WCF operations as compared
       with approved plans.

   •		 Reviewing and approving customer requests for obtaining services outside the
       WCF.

The OCFO is responsible for the following:

   •		 Developing overall WCF policy, and prescribing rules, regulations, systems, and
       procedures to ensure the fiscal soundness and efficient management of the
       WCF.

   •		 Conducting financial reviews on the status of WCF operations and the adequacy
       of the allocation percentages for assessing charges for services.

   •		 Maintaining and operating the accounting and reporting system for the WCF
       operation and initiating WCF Service Agreements between the service and
       customer agencies. This includes acting as central point of contact to
       disseminate timely internal financial cost data and managing the use of WCF
       unobligated balances consistent with enabling and authorizing legislation.

   •		 Consulting with the WCF Committee on the programs, functions, and activities to
       be performed and financed through the WCF and providing oversight to periodic
       review of WCF RCCs for validation and reviewing all requests for responsibility

                                                                     DOL Working Capital Fund
                                             28                    Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 




      cost center changes submitted OASAM. The RCCs are used as cost centers to
      identify key elements that pertain to each financial transaction for all DOL
      agencies. RCCs for the WCF contain “QD” in their account number and each
      represents a WCF service and activity. DOL developed the Pricing Strategies
      Pamphlet to provide a description of the WCF services and activities provided,
      the associated RCC, and the allocation method used to charge costs.

OASAM, in partnership with the OCFO, is responsible for the following:

   •		 Working with the OCFO in conducting financial reviews of WCF operations and
       determining the programs, functions, and activities to be performed and financed
       through the WCF.

   •		 Preparing the annual WCF budget submission, apportionments, allotments,
       allocations, and operating budgets and employment and staffing patterns for
       WCF service providers.

   •		 Providing instructions and directions to service provider managers in the 

       preparation of WCF budget estimates. 


   •		 Consulting with the OCFO on proposed changes in the legislative scope and
       authority for the WCF.

   •		 Conducting periodic reviews of the RCCs assigned to WCF service organizations
       to determine if they are appropriate.

All DOL agencies in both the national and regional offices are required to use
centralized services provided by the WCF unless the OCFO determines, on the basis of
a cost analysis, that certain services may be obtained more economically elsewhere.

During the Department’s budget process, which starts approximately 19 months in
advance of the fiscal year, the OCFO and OASAM provide budget estimates of WCF
expenses to DOL customer agencies so they can include the costs in their budget
requests. The WCF budget estimate is the amount required to finance centralized
services. After the enactment of DOL’s appropriation, the WCF estimates can be
adjusted based on subsequent assessments by the OCFO and OASAM. Customer
agencies advanced funds to the WCF based on quarterly assessments prepared by the
OCFO.

The WCF Pricing Strategies Pamphlet, prepared by the OCFO, provide customer
agencies descriptions of the WCF services provided by each RCC. The Pricing
Strategies Pamphlet is organized into 70 service providers. Potentially, more than one
RCC could be associated with a service category. For example, the Office of Human
Resources Consulting and Operations service provider has two RCCs. Additionally, the
Pricing Strategies Pamphlet identifies the allocation method assigned to each service
category.

                                                                     DOL Working Capital Fund
                                           29                      Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 





Customer agencies provide advanced funds to the WCF based on quarterly
assessments prepared by the OCFO. The OCFO prepares the assessments based on
the budget information provided by OASAM. DOL uses two allocation methods for
assigning costs to the customer agencies. The first method traces specific costs to
customer agencies based on usage. The second method recovers costs based on
employment levels utilizing automated allocation tables in the WCF module. To allocate
usage costs, the service provider submits a CRR on a monthly basis to the OCFO to be
processed and entered into the WCF module for subsequent allocation. Each service
provider’s CRR contains activity cost data specific to the customer agency that uses the
service. However, service providers do not make available any supporting detail for this
report. The OCFO inputs this information into automated spreadsheets and then
manually enters the calculated data from these spreadsheets into the WCF module. For
allocating the remaining costs the OCFO uses the automated allocation tables in the
WCF module. The OCFO maintains these tables using the customer agency
employment data provided by OASAM.




                                                                     DOL Working Capital Fund
                                           30                      Report No. 03-10-002-13-001
                                           U.S. Department of Labor – Office of Inspector General 




                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

   Is the WCF operated according to Federal law, guidelines, and DOL policies?

Scope

The audit covered operations in place at the time our fieldwork, which started in June
2009 and ended in February 2010. No significant policy changes covering the WCF
since the end of our field work have occurred as May 2010. We analyzed WCF budget
data for all 13 DOL customer agencies for FY 2008 and the overall WCF budget
covering FYs 2006 through 2008, reviewed methods to allocate costs for FY 2008 and
reviewed expense data from FY 2008. We used FY 2008 because it was the most
recent completed fiscal year available at the time we started our audit in June 2009. The
review of the expense data consisted of a judgmental sample of 30 non-personnel
disbursement documents that service providers included in the WCF cost pools for FY
2008. We identified 44 RCCs that had costs of more than $300,000 for any object class
code. The OCFO provided us a list of disbursement documents from the accounting
system for the 44 RCCs. The list contained 2,231 disbursement document transactions
totaling $78,464,250. We selected 30 disbursement document transactions based on
one or more of the following: disbursements of more than $300,000, disbursed in the
fourth quarter of FY 2008, disbursements in even amounts, and disbursement that
appeared to be adjusting entries. The sample and its results are not representative of
the universe of non-personnel costs. We reviewed the 127 WCF services and activities
for which costs could be charged in DOL’s accounting system for FY 2008. We
performed audit work at DOL’s National Office in Washington, D.C.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective.

Methodology

To accomplish the objective we obtained an understanding of the WCF by reviewing
documentation and interviewing OCFO and OASAM National Office management and
staff responsible for administering the WCF. We also reviewed documentation and
conducted interviews with service providers and customer agencies. We conducted an
analysis of WCF budget, expense, and collections data. We also interviewed officials
who had involvement with the WCF to obtain their perspectives on the WCF operations

                                                                      DOL Working Capital Fund
                                            31                      Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 




at the following customer agencies – BLS, the Occupational Safety and Health
Administration, ETA, MSHA, ESA and the Employee Benefits Security Administration.

To determine if the WCF operated according to Federal guidelines and DOL policies,
we examined whether DOL had a process for determining the appropriateness and
advantages for having the services and activities in the WCF; the budget process
provided reasonable estimates of costs and anticipated collections; appropriate
allocation methods were used to charge WCF costs to customer agencies; and controls
were in place to ensure that only non-personnel costs related to the WCF were charged
to customer agencies. To determine if all of the WCF services and activities were
appropriate and advantageous, we gained an understanding of them by reviewing the
WCF Pricing Strategies Pamphlet, dated 2008. DOL used this pamphlet to inform
customer agencies about the service for each WCF cost center and the allocation
method used to assess costs. We compared the services and activities to the services
specified in the authorizing legislation, and for those services and activities not
specified, we used auditor judgment as to whether or not they were centralized in
nature.

We analyzed cost estimates and actual collections covering FYs 2006 through 2008 to
determine if the WCF budget process provided reasonable estimates of costs and
anticipated collections. We reviewed the allocation descriptions in the current WCF
Pricing Strategies Pamphlet to determine the appropriateness based on the type of
costs charged and reviewed the process used to compile and allocate the costs to
customer agencies. Finally, to determine if controls were in place for charging costs to
the WCF and customer agencies, we reviewed expense data focusing on
non-personnel WCF costs for FY 2008, which totaled $105,987,037. The total cost
charged to WCF FY 2008 was $171,075,192, which consisted of $65,088,155 of
personnel costs and $105,897,037 of non-personnel costs.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing DOL’s policies and procedures for
administering the WCF. We confirmed our understanding of these controls and
procedures through interviews and documentation review and analysis.

We evaluated internal controls used by DOL for reasonable assurance that the WCF
was administered according to federal and Departmental requirements. Our
consideration of DOL’s internal controls for administering the WCF would not
necessarily disclose all matters that might be reportable conditions. Because of inherent
limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected.

In planning and performing the audit we relied on computer-generated reports, such as
the D338 and a list of disbursements from the OCFO, to identify the universe of costs

                                                                     DOL Working Capital Fund
                                           32                      Report No. 03-10-002-13-001
                                         U.S. Department of Labor – Office of Inspector General 




that service providers charged for FY 2008 to the WCF. We assessed the reliability of
the data by performing analytical procedures and comparing to WCF financial
statements. We concluded the data was sufficiently reliable to use for our purposes.

Criteria

   •		 PL 85-67, and codified in 29 U.S.C., Section 563, DOL WCF Establishment,
       Availability, Capitalization, Reimbursement, dated June 29, 1957

   •		 PL 91-204, and codified in 29 U.S.C ,Section 564, DOL WCF Availability for
       Personnel Functions in Regional Administrative Offices, dated March 5, 1970

   •		 PL103-112, and codified in 29 U.S.C, Section 563a, DOL WCF Comprehensive
       Program of Centralized Services, dated October 21, 1993

   •		 PL 97-258, and codified in 31 U.S.C, Sections 1535 Agency Agreements and
       1536 Crediting Payments From Purchases Between Executive Agencies, both
       dated September 13, 1982

   •		 OMB Circular A-11, Preparation, Submission, and Execution of the Budget,
       dated June 2008

   •		 OMB Circular A-123, Management’s Responsibility for Internal Control, dated
       December 21, 2004

   •		 Managerial Cost Accounting Concepts and Standards for the Federal
       Government, Statement of Federal Financial Accounting Standards Number 4,
       dated July 31, 1995

   •		 FAR Subpart 31.2, Contracts with Commercial Organizations, dated August 17,
       2007

   •		 DLMS 6, Financial Management, Chapter 1200, Working Capital Fund, dated
       September 4, 2001

   •		 DLMS 6, Financial Management, Chapter 800, Managerial Cost Accounting,
       dated March 14, 2007

   •		 DLMS 6, Financial Management, Chapter 400, Administrative Control of Funds,
       March 24, 2008

   •		 DLMS 6, Financial Management Chapter 200: Budget Formulation and
       Justification, dated January 16, 2009




                                                                    DOL Working Capital Fund
                                          33                      Report No. 03-10-002-13-001
                                      U.S. Department of Labor – Office of Inspector General 




•		 DOL Secretary’s Order 04-2009, Authority and Responsibilities for
    Implementation of the CFO Act of 1990 and Related Legislation; Notice, dated
    January 23, 2009




                                                                 DOL Working Capital Fund
                                       34                      Report No. 03-10-002-13-001
                                             U.S. Department of Labor – Office of Inspector General 




                                                                                    Appendix C
Acronyms and Abbreviations
ASAM   Assistant Secretary for Administration and Management
BLS         Bureau of Labor Statistics
BOC         Business Operations Center
BPA         Blanket Purchase Agreement
CFO         Chief Financial Officer
CRR         Cost Recovery Report
DOL         U.S. Department of Labor
DLMS        Department of Labor Manual Series
ESA         Employment Standards Administration
ETA         Employment and Training Administration
FAR         Federal Acquisition Regulation
FECA        Federal Employees’ Compensation Act
FEMA        Federal Emergency Management Agency
FPB         Frances Perkins Building
FY          Fiscal Year
ITC         Information Technology Center
MSHA        Mine Safety and Health Administration
OASAM Office of Assistant Secretary for Administration and Management
OCFO        Office of the Chief Financial Officer
OCIO        Office of the Chief Information Officer
OHRCO Office of Human Resources Consulting and Operations
OIG         DOL Office of Inspector General
OMB         Office of Management and Budget
OPA         Office of Public Affairs
OSEC        Office of the Secretary
PL Public          Law
RCC         Responsibility Center Codes
SF          Standard Form
U.S.C.      United States Code
WCF         Working Capital Fund

                                                                        DOL Working Capital Fund
                                              35                      Report No. 03-10-002-13-001
              U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK
	





                                         DOL Working Capital Fund
               36                      Report No. 03-10-002-13-001
                                U.S. Department of Labor – Office of Inspector General 




                                                                       Appendix D
OCFO Response to Draft Report




                                                           DOL Working Capital Fund
                                 37                      Report No. 03-10-002-13-001
              U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK
	





                                         DOL Working Capital Fund
               38                      Report No. 03-10-002-13-001
                                          U.S. Department of Labor – Office of Inspector General 




                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Naomi Byberg, Renata
Hobbs, and Patrick Trager.




                                                                     DOL Working Capital Fund
                                           39                      Report No. 03-10-002-13-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/   hotlineform.htm
Email: hotline@ oig.dol.gov

Telephone:     1-800-347-3756
         202-693-6999

Fax:      202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room 	S-5506 
          

         Washington, D.C. 20210 

